                                   S OCIAL S ECURITY

November 7, 2007

To: The Honorable Michael J. Astrue
    Commissioner


This letter transmits the PricewaterhouseCoopers LLP (PwC) Report of Independent Auditors on
the audit of the Social Security Administration’s (SSA) Fiscal Year (FY) 2007 and 2006
financial statements. PwC's Report includes the firm’s Opinion on the Financial Statements,
Report on Management's Assertion About the Effectiveness of Internal Control, and Report on
Compliance and Other Matters.

Objective of a Financial Statement Audit
The objective of a financial statement audit is to determine whether the financial statements are
free of material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation.

PwC’s audit was made in accordance with generally accepted auditing standards, Government
Auditing Standards issued by the Comptroller General of the United States, and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements. The audit included obtaining an understanding of the internal control over financial
reporting and testing and evaluating the design and operating effectiveness of the internal
control. Because of inherent limitations in any internal control, there is a risk that errors or fraud
may occur and not be detected. The risk of fraud is inherent to many of SSA’s programs and
operations, especially within the Supplemental Security Income program. In our opinion, people
outside the organization perpetrate most of the fraud against SSA.

Audit of Financial Statements, Effectiveness of Internal Control,
and Compliance with Laws and Regulations
The Chief Financial Officers (CFO) Act of 1990 (P.L. 101-576), as amended, requires SSA's
Inspector General (IG) or an independent external auditor, as determined by the IG, to audit
SSA's financial statements in accordance with applicable standards. Under a contract monitored
by the Office of the Inspector General (OIG), PwC, an independent certified public accounting
firm, audited SSA's FY 2007 financial statements. PwC also audited the FY 2006 financial
statements, presented in SSA's Performance and Accountability Report for FY 2007 for
comparative purposes. PwC issued an unqualified opinion on SSA's FY 2007 and 2006 financial
statements. PwC also reported that SSA's assertion that its internal control over financial
reporting was operating effectively as of September 30, 2007, is fairly stated, in all material
respects, based on criteria established under OMB Circular A-123, Management’s Responsibility
for Internal Control. PwC identified no reportable instances of noncompliance with the laws,
regulations or other matters tested.
Page 2 - The Commissioner

OIG Evaluation of PwC Audit Performance
To fulfill our responsibilities under the CFO Act and related legislation for ensuring the quality
of the audit work performed, we monitored PwC's audit of SSA's FY 2007 financial statements
by:
   •   Reviewing PwC's approach and planning of the audit;
   •   Evaluating the qualifications and independence of its auditors;
   •   Monitoring the progress of the audit at key points;
   •   Examining its workpapers related to planning the audit and assessing SSA's internal
       control;
   •   Reviewing PwC's audit report to ensure compliance with Government Auditing
       Standards and OMB Bulletin No. 07-04;
   •   Coordinating the issuance of the audit report; and
   •   Performing other procedures that we deemed necessary.

PwC is responsible for the attached auditor’s report, dated November 7, 2007, and the opinions
and conclusions expressed therein. The OIG is responsible for technical and administrative
oversight regarding PwC’s performance under the terms of the contract. Our review, as
differentiated from an audit in accordance with applicable auditing standards, was not intended
to enable us to express, and accordingly we do not express, an opinion on SSA’s financial
statements, management’s assertions about the effectiveness of its internal control over financial
reporting, or SSA’s compliance with certain laws and regulations. However, our monitoring
review, as qualified above, disclosed no instances where PwC did not comply with applicable
auditing standards.




                                              Patrick P. O’Carroll, Jr.
                                              Inspector General
                                                                                     PricewaterhouseCoopers LLP
                                                                                     Suite 900
                                                                                     1800 Tysons Boulevard
                                                                                     McLean VA 22102
                                                                                     Telephone (703) 918 3000
                                                                                     Facsimile (703) 918 3100
                                                                                     www.pwc.com

                                 Report of Independent Auditors



To the Honorable Michael J. Astrue
Commissioner
Social Security Administration

In our audit of the Social Security Administration (SSA), we found:

     The consolidated balance sheets of SSA as of September 30, 2007 and 2006, and the related
      consolidated statements of net cost and of changes in net position, and the combined statements
      of budgetary resources for the years then ended and the statement of social insurance as of
      January 1, 2007 and January 1, 2006 are presented fairly, in all material respects, in conformity
      with accounting principles generally accepted in the United States of America;
     Management fairly stated that SSA’s internal control over financial reporting was operating
      effectively as of September 30, 2007.
     No reportable instances of noncompliance with the laws, regulations or other matter tested.

The following sections outline each of these conclusions in more detail.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying consolidated balance sheets of SSA as of September 30, 2007 and
2006, and the related consolidated statements of net cost and of changes in net position, and the
combined statements of budgetary resources for the years then ended and the statement of social
insurance as of January 1, 2007 and January 1, 2006. These financial statements are the responsibility of
SSA’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 07-04. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements.
An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.
In our opinion, the financial statements referred to above and appearing on pages 104 through 134 of this
performance and accountability report, present fairly, in all material respects, the financial position of SSA
at September 30, 2007 and 2006, and its net cost of operations, changes in net position, and budgetary
resources for the years then ended and the financial condition of its social insurance programs as of
January 1, 2007 and January 1, 2006, in conformity with accounting principles generally accepted in the
United States of America.

Our audit was conducted for the purpose of forming an opinion on the financial statements of SSA taken
as a whole. The additional information presented on the statement of social insurance as of
January 1, 2007 and January 1, 2006 is not a required part of the financial statements and is presented
for purposes of additional analysis. Such information has been subjected to the auditing procedures
applied in the audit of the financial statements and, in our opinion, is fairly stated in all material respects in
relation to the financial statements taken as a whole.

As discussed in Note 17 to the financial statements, the statements of social insurance present the
actuarial present value of SSA's estimated future income to be received from or on behalf of the
participants and estimated future expenditures to be paid to or on behalf of participants during a
projection period sufficient to illustrate long-term sustainability of the social insurance program. In
preparing the statements of social insurance, management considers and selects assumptions and data
that it believes provide a reasonable basis for the assertions in the statements. However, because of the
large number of factors that affect the statements of social insurance and the fact that future events and
circumstances cannot be known with certainty, there will be differences between the estimates in the
statements of social insurance and the actual results, and those differences may be material.

REPORT ON MANAGEMENT’S ASSERTION ABOUT THE EFFECTIVENESS OF INTERNAL
CONTROL

We have also examined management’s assertion, included in the accompanying Federal Manager's
Financial Integrity Act (FMFIA) Assurance Statement on page 38 of this Performance and Accountability
Report (PAR), that SSA’s internal control over financial reporting was operating effectively as of
September 30, 2007 based on criteria established under OMB Circular A-123, Management's
Responsibility for Internal Control. We did not test all internal controls relevant to the operating objectives
broadly defined by the Federal Managers’ Financial Integrity Act of 1982. SSA’s management is
responsible for maintaining effective internal control over financial reporting. Our responsibility is to
express an opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants (AICPA), the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States, and OMB
Bulletin No. 07-04 and, accordingly, included obtaining an understanding of the internal control, testing
and evaluating the design and operating effectiveness of the internal control, and performing such other
procedures as we considered necessary in the circumstances. We believe that our examination provides
a reasonable basis for our opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may occur and
not be detected. Also, projections of any evaluation of the internal control to future periods are subject to
the risk that the internal control may become inadequate because of changes in conditions, or that the
degree of compliance with the policies or procedures may deteriorate.

In our opinion, management’s assertion that SSA’s internal control over financial reporting was operating
effectively as of September 30, 2007, is fairly stated, in all material respects, based on criteria established
under OMB Circular A-123.




                                                                                                                2
We did note matters involving the internal control and its operation that we will communicate in a separate
letter.

INTERNAL CONTROL RELATED TO KEY PERFORMANCE INDICATORS

With respect to internal control relevant to data that support reported performance measures on pages
14, 15 and 16 of this PAR, we obtained an understanding of the design of significant internal control
relating to the existence and completeness assertions, as required by OMB Bulletin No. 07-04. Our
procedures were not designed to provide assurance on the internal control over reported performance
measures and, accordingly, we do not express an opinion on such control.

REPORT ON COMPLIANCE AND OTHER MATTERS

The management of SSA is responsible for compliance with laws and regulations. As part of obtaining
reasonable assurance about whether the financial statements are free of material misstatement, we
performed tests of compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement amounts and certain
other laws and regulations specified in OMB Bulletin No. 07-04, including the requirements referred to in
the Federal Financial Management Improvement Act (FFMIA) of 1996. We limited our tests of compliance
to these provisions, and we did not test compliance with all laws and regulations applicable to SSA.
However, providing an opinion on compliance with those provisions was not an objective of our audit and,
accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of noncompliance with laws and regulations
discussed in the preceding paragraph, exclusive of FFMIA, or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 07-04 as of September 30, 2007.

Under FFMIA, we are required to report whether SSA’s financial management systems substantially
comply with the Federal financial management systems requirements, applicable Federal accounting
standards, and the United States Government Standard General Ledger at the transaction level. To meet
this requirement, we performed tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed no instances in which SSA’s financial management systems did not
substantially comply with the three requirements discussed in the preceding paragraph as of September
30, 2007.

OTHER INFORMATION

The Management’s Discussion and Analysis (MD&A) included on pages 5 to 41, and Required
Supplementary Information (RSI) included on pages 1 and 140 and 141 to 156 of this performance and
accountability report are not a required part of the financial statements but are supplementary information
required by the Federal Accounting Standards Advisory Board or OMB Circular No. A-136, Financial
Reporting Requirements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of the MD&A and RSI.
However, we did not audit the information and express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the financial statements of SSA taken
as a whole. The Schedule of Budgetary Resources, included on page 140 of this PAR, is not a required
part of the financial statements but is supplementary information required by OMB Circular No. A-136,
Financial Reporting Requirements. This information and the consolidating and combining information
included on pages 136 to 139 of this performance and accountability report are presented




                                                                                                          3
for purposes of additional analysis and are not a required part of the financial statements. Such
information has been subjected to the auditing procedures applied in the audit of the financial statements
and, in our opinion, are fairly stated in all material respects in relation to the financial statements taken as
a whole.

The other accompanying information included on pages 2 to 4, 42 to 103, 135, 157 to 158, and 163 to the
end of this PAR, is presented for purposes of additional analysis and is not a required part of the financial
statements. Such information has not been subjected to the auditing procedures applied in the audit of
the financial statements and, accordingly, we express no opinion on it.

                                                    *****

This report is intended solely for the information and use of management and the Inspector General of
SSA, OMB, the Government Accountability Office and Congress and is not intended to be and should not
be used by anyone other than these specified parties.




November 7, 2007




                                                                                                               4
